FOR IMMEDIATE RELEASE                                                    October 3, 2013
Media Contact: 202-565-3908

             MIAMI RESIDENT EXTRADITED FROM ARGENTINA

Washington, DC – The Office of Inspector General (OIG) for the Export-Import Bank of
the United States (Ex-Im Bank) announced that on October 3, 2013, Jose L. Quijano
formerly of Miami, was extradited from Argentina to the United States. Quijano fled to
Argentina on June 7, 2011, prior to sentencing.
OIG agents shared intelligence with INTERPOL and Department of State, Diplomatic
Security Service agents and they coordinated with Argentine Police, who arrested
Quijano in Buenos Aires, Argentina, on Dec. 20, 2011.
Quijano, 45, was sentenced in absentia on June 27, 2011, by U.S. District Judge
Adalberto J. Jordan in the Southern District of Florida to 46 months in prison, followed
by 36 months of supervised release, and was ordered to pay $956,251 in restitution.
Quijano pleaded guilty on Feb. 9, 2011, to conspiracy to commit wire fraud in connection
with a scheme to defraud Ex-Im Bank of approximately $956,251.
According to court documents, Quijano was the owner of Gangaland, USA LLC, an
electronics exporting company located in Miami that purported to be in the business of
purchasing and exporting electronic and computer parts to foreign buyers in South
America. Quijano admitted that he and others conspired to defraud the Ex-Im Bank by
devising a scheme to obtain money and property by false and fraudulent pretenses.
According to court records, Quijano and others obtained loans guaranteed by the Ex-Im
Bank and misappropriated the loan proceeds for their own use and benefit. From 2008
through 2010, Quijano, through Gangaland, acted as an exporter in 96 loan transactions
insured by the Ex-Im Bank and received approximately $3,637,806 in proceeds. Quijano
admitted that he and others falsified financial statements, waybills, purchase orders and
bills of lading to falsely represent to various lending banks, including the Ex-Im Bank,
that the purchase and export of U.S. goods was for buyers in South America. According
to court records, all of the loans involving Gangaland were fraudulent and no U.S. goods
of any kind were shipped to South American buyers. As a result of the fraud the
Gangaland loans went into default, causing the Ex-Im Bank to pay claims losses to the
lending banks in the amount of $902,450.
This case is being prosecuted by the Department of Justice, Criminal Division, Fraud
Section Senior Litigation Counsel Patrick Donley and Trial Attorney William Bowne;
with the assistance of the United States Attorney’s Office for the Southern District of
Florida. Significant assistance was provided to this fugitive investigation by the
Department of Justice, Office of International Affairs; the Department of State,
Diplomatic Security Service; INTERPOL; and the United States Marshals Service.




                   811 Vermont Avenue, NW Washington, D.C. 20571
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by
filling gaps in private export financing. Ex-Im Bank provides a variety of financing
mechanisms, including working capital guarantees, export-credit insurance, and financing
to help foreign buyers purchase U.S. goods and services.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations. Additional information
about the OIG can be found at www.exim.gov/oig. Complaints and reports of waste,
fraud, and abuse related to Ex-Im Bank programs and operations can be reported to the
OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at IGhotline@exim.gov.
                                         ###




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
